-I

*1

%
f

■i

a..

wm

1

a

\

:

:i

'M

i

mmmmBmrnsmm
<£

■

4

<*•
o .

Hi

>

•SHS:

gs

iiiliiliii!
I

__________ ;
*

;

.v
.>■

'.i
3

:

TABLE OF CONTENTS
Table of Contents

1

Rule on Rehearing

1

Applications Not Docketed

1

Argument

1-11

RULE on REHEARING
Pursuant to Supreme Court Rule 44, Petitioner
respectfully petitions for rehearing of the Court’s
decision issued on April 5, 2021.
APPLICATIONS TO JUSTICE KAVANAUGH
This petition is submitted with one of four applications
originally sent to Chief Justice Robert (recaptioned)
which were not docketed twice when the Court had
jurisdiction in 20-705. Uploaded in 19-CV-121 (9/21).
They are being sent with the applications sent to Justice
Kavanaugli before the petition was denied which were
not docketed - and one other.
Petitioner asked for a deferment of this petition
timely - and before it was denied. The application was
not docketed.

*:• :

1
REASONS FOR REHEARING
<
The reason for this rehearing is simple: Orders '
absent lawful authority have been and are being
rendered by judges (Article I, III and VI judges).
Despite relying on this Court’s ruling and the law,
Article I and Article III judges will not address
void orders rendered by Article VI judges.
Instead, federal, judges have doublecUdown on
their retaliatory conduct to bar Petitioner from
court (First Amendment) in order to keep their
crimes in play unimpaired.
Void dismissals have also deprived Petitioner of
her right to answers to federal questions and
relief from unconstitutional conduct, including,
but not limited to, enjoining state actors from
doing what they cannot do.
Void orders by Article I, III and VI judges have
been and are being used as a tool of retaliation
against Petitioner for expressing herself and
enjoying her established rights. Judges have
used and are using void, illegal order to prevent
Petitioner from petitioning against corrupt
judges and their lawless conduct in her courts.
Void orders are not enforceable, yet they are
being carried out and upheld by county actors as

2

if valid. Inquiries into void state judgments are
not being made by Article I and III judges.
Petitioner (and others similarly situated in New
Jersey) are suffering from these void orders
rendered lawful authority.
Void orders have been and are being used to
extort Petitioner and steal her properties; a
practice carried out in New Jersey since 2008
which has been made known to this court since
2015 via 15-753.
“The liberties of none are safe unless the liberties
of all are protected.” Justice William Douglas.
Supreme Court of the United States Could
Have and Should Have Acted
Petitioner has been to this Court seeking to
address that which federal district judges have
refused to address since 2014. She first advised
this Court that Article VI judges in New Jersey
were acting absent jurisdiction and stealing from
her in 15-753. The Court took no action.
Although it is doubtful the motions were even
seen by Justice Alito, relief to stay state matters
to prevent additional harm was denied twice in
this Court (17A587 and 19A992) in two separate

3
petitions. Every effort to stay state action by the
All Writs Act (a protection permitted in §1983
cases) has been denied (or avoided) by every
federal judge, including in this Court.
Piecemeal litigation has been and is being caused1
(without a single federal, question being
answered). This has been made known to this
Court repeatedly by a collection of petitions -- and
not remedied. Force to ping-pong between courts
(combined with the endless delays caused without
reason) is nothing but more retaliatory, harassing
and oppressive tactics being used by vindictive
judges. Petitioner should not be subjected to this
nor should the taxpayers have to pay for this
waste of judicial resources.

’Petitioner’s application to Justice Kavanaugh
regarding the deprivation of Second Amendment
rights in New Jersey by void orders was not docketed.
In fact, none other applications were docketed
(including a deferment for the petition which was then
denied). These filings should have been considered
before the petition was denied. This Court had
jurisdiction.

4

With no federal judge answering federal questions
and this Court not docketing applications to
address unconstitutional state actors, the
lawlessness of New Jersey judges will continue.
Rogue people parading about as judges wdll
continue to impact every established
Constitutional right the people in this state have.
We are being extorted and we have no courts.
New Jerseyans under attack by lawless judges;
judges whom federal judges will not hold to
account and whom this Court has allowed to get
away with defying federal law for years.
If the lawlessness of state judges had been
addressed when first brought to this Court in
2015, this petition and rehearing would not be
needed nowr — and Petitioner would not have
endured another year of extortion at the hands of
criminals calling themselves state judges.
It is solely due to the deprivation of access and
the complete deprivation of 14th Amendment
protections in every federal court (including this
Court) that Petitioner is still being coerced,
extorted and robbed by rogue Article VI judges in
New Jersey.

5

Petitioner’s injuries have been caused by judges.
Instead of protections in the law by federal judges
required to act as guardians of the Constitution,
she has endured more retaliation at the hands of
rogue, lawless judges.
Cancel culture and censorship are running amok
in the US Courts. The perfectly timed, illegal,
void dismissal by Chief Judge Strand in 19-121,
ECF 193 is proof of this. The case and
controversy were ignored in order to silence a
citizen. Again.
If Justice Breyer seeks to make an argument
about events “further eroding” the trust of this
Court, he need look no further than Petitioner’s
cases as to why this Court and the Judiciary itself
are not trusted by the people. Judges cannot be
trusted. They serve themselves above the law.
This rehearing is needed to address repeated,
ongoing deprivations of Petitioner’s First
Amendment rights; deprivations beins caused in
retaliation because of Petitioner’s petitioning of
corrupt judges.

6

Although it is fully expected this petition will be
buried and marked “denied” by this Court’s staff,
it is still being filed.
But for the deprivation of her rights, individually
liable wrongdoers (judges) who did not appear in
federal and state cases would have been put in
default - and Petitioner would have had
judgments in her favor by now; relief would have
been obtained rather writing this rehearing while
awaiting more void orders by lawless state judges
that no federal judge will remedy. Again.
Civil Rights Violations
In defiance of established law and resistance to
the laws of the United States, it is beyond evident
that no “judge” will touch, remedy or provide
relief from any void orders of other judges.
Acting as defense counsel instead of judges,
judges (state and federal) act only to insulate
other judges (and their assets) from suit. They
will not (and cannot) remedy void orders when
faced with them because doing so would be a
declaration of liability on the part of their
colleague. Violating the law to avoid making such
a declaration, void orders are never remedied.
The damage and foreseeable damage caused to

7

the citizen remain, but the liable wrongdoers
(judges) get to skip off down the road by illegal
dismissal. This is beyond unlawful.
As the “ultimate monopoly”1 of all judicial process
and enforcement, judges have left the people with
no recourse. The desire for judges to insulate
themselves from suit has blinded judges to the
duties owed to those they serve.
The US Court of Appeals for the Third Circuit
and the US Court of Appeals for the Eighth
Circuit both established this is the policy in play.
Void Dismissals
As recently asserted (yet again) by this Court in
Tanzin v. Tarwir (USl 2020), the law must be
applied according to the defendant as one sued in
their individual capacity vs. official capacity.
Time and again, void dismissals are rendered to
the “defendant” when a defendant in their
individual capacity did not appear. Clerks of
the court lend a hand in this farce by not entering
defaults (required in both state and federal
courts). This gift is furthered by judges who feign
their awareness of these different liabilities.

8
Repeatedly, the New Jersey Attorney General has
appeared for defendants without specifying the
limitations of its representation. The United
States Attorney General has appeared in cases
without authority for the individually liable
defendant. Both have received void dismissals for
judges by this stunt. This fraud has resulted in
numerous void dismissals which now no other
judge will touch.
In the federal courts, judges routinely violate
Article HI; negating entirely their duty to
adjudicate cases and controversy, questions and
motions (R. 1).
When a court has jurisdiction, a federal judge
(Article I and III) has no right to dismiss a case as
final until all matters are resolved. This includes,
but is not limited to, (1) § 1331: Answering federal
questions. (R. 5.1: Certifying challenges to state
statutes), (2) § 1343: Providing redress for civil
rights violations (including equitable relief; 14th
Amendment protections and (3) § 1346:
Adjudicating claims founded upon the
Constitution.
Repeatedly, the law has not been upheld. Due
process not given. And non-final orders are forced

9
into untimely appeals without matters heard.
Absent any discretionary power, federal judges
are simply refusing to their jobs - and refusing
to call out Article VI judges for acting
unconstitutionally (declaratory relief) in the
process.
These dismissals are void, but there is no remedy
from them in any court.
§1983 Damages
This Court’s unanimous ruling in Tanzin v.
Tanvir (USl 2020) stated “damages claims have
always been available under §1983.” This is a
lovely sentiment, but entirely untrue in the real
world. The reality is that there is a war being
waged by “judges” against the people, especially
against those who have filed cases that dare name
judges as defendants.
The idea that there has always been damages
available under § 1983 is farcical. These
“available” damages cannot be obtained when
cases are killed illegally by judges; judges playing
defense-counsel for other judges.
Damages have never been available to the people
when it comes to §1983 claims against judges.

10
Unless it is prearranged that, damages will come
from a municipality, a suit against a judge will
not proceed. Dismissals are the only route such
cases will take (often by sua sponte rulings).
Moreover, any cursory review of any district court
docket would prove that the short pleading notice
(Erickson v. Pardus) has been annihilated and
preclusion (Rooker-Feldman Doctrine)
deliberately misused to bar valid suits by federal
“judges,” especially in suits brought against
judges. — Everything is “conclusory” (Twombly),
everyone is a disgruntled loser seeking to appeal
a state judgment (without any inquiry made), and
everyone is immune from everything (whether
they mount a defense or even appear). These
sentiments run rampant in the US Courts.
The bag of tricks judges can use to render
dismissals (and closures) by void orders to protect
their own is limitless which makes obtaining
“available” remedies nearly impossible.
Retaliation by Void Orders
Accessing the court, petitioning the government
and having the right to meaningful due process
(including the right to defaults and default
judgments) are First Amendment rights.

11
Petitioner lias been and continues to be barred by
judges who are violating her established rights.
Their conduct has been and is outright
retaliatory.
Unlike any other officials, judges know exactly
when they have violated and are violating a
citizen’s First Amendment rights. No clever order
can excuse such illegitimate conduct after the
fact.
Without question, judges do not want to be sued.
They hold themselves out of reach of the law.
Petitioner is being retaliated against for holding
judges accountable and she is being punished for
enjoying the right to do so. The void orders
causing these unnecessary sideshows are nothing
but an extension of their punishment - and it is
just one more illegal tactic used to keep her from
her remedies in the court.
If the law were upheld by judges, these void
orders could not exist. Judges are not doing their
jobs - but they need to do so. It is that simple.
s/ Chris Jaye
Chris Jaye
Petitioner, Pro se

i

Certificate of Good Faith
No. 20-1228
Jaye v. US District Court of Northern District of Iowa
As required by Supreme Court Rules, I certify that the petition
for a rehearing is filed in good faith and not for delay. The
fifteen-month delay was caused by Judge CJ Williams; conduct
backed and supported by the US Court of Appeals for the
Eighth Circuit when they refused to force him to act as an
Article III judge.
In terms of delay, Chief Judge Strand just caused additional
chaos with an order that is not final and not appealable. The
delays, waste of judicial resources and games are being played
by government actor of the Judiciary - not by me.
Additionally, this Court’s clerk refused to docket an
application to Justice Brett Kavanaugh which sought to defer
this petition. Again, the games played and the delays are on
the part of those employed in the Judiciary — not me.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on April 13, 2021.

ChrisJ;
Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

